TN

@OCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-756
LOUIS TAYLOR,
Petitioner,

v.
PIMA COUNTY, ARIZONA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of January, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF LUCIAN E. DERVAN AS AMICUS CURIAE IN

SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LUCIAN E. DERVAN CHARLES A. TROST
Belmont University Counsel of Record
College of Law Belmont University
1900 Belmont Blvd College of Law
Nashville, TN 37212 1900 Belmont Blvd
(615) 460-8271 Nashville, TN 37212
lucian.dervan@belmont.edu (615) 460-8299

charles.trost@belmont.edu

Counsel for Amicus Curiae

Subscribed and sworn to before me this 9th day of January, 2020. |
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . \
State of Nebraska : Le Qudraw- ,
My Commission Expires Nov 24, 2020 Z

Notary Public Affiant

 

39289
Attorney for Petitioner

Neal Kumar Katyal

Counsel of Record
Mitchell P. Reich
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
(202) 637-5600
neal.katyal@hoganlovells.com

Counsel for Petitioner Louis Taylor

Attorney for Respondents

Nancy J. Davis

Pima County Attorney’s Office
32 N. Stone Avenue, Suite 2100
Tucson, Arizona 85701

(520) 724-5700
Nancy.Davis@peao.pima.gov

Counsel for Respondent County of Pima

Dennis Patrick McLaughlin

City of Tucson Attorney’s Office
P.O. Box 27210

Tucson, Arizona 85726-7210
(520) 791-4221
Dennis.McLaughlin@tucsonaz.gov

Counsel for Respondent City of Tucson
